                     

 

 

                                    Greater Efficiencies and
 
                                    Increased Oversight
                                    Needed for the NMAAHC
 

 

 
                                    Construction
 
                                    Management Process
 




                                    Office of the Inspector General


                                    Audit of Management of the National
                                     Museum of African American History
                                     and Culture Building Project,
                                     A-12-03-2 Audit Report
                                    September 28, 2012
         Smithsonian Institution
         Office of the Inspector General
                               Greater Efficiencies and Increased Oversight

In Brief                       Needed for the NMAAHC Construction
                               Management Process
                               Report Number A-12-03-2, September 28, 2012
                                                                                                       

Why We Did This Audit           What We Found

We are conducting a series      While Smithsonian management actively oversees the National
of audits of the                Museum of African American History and Culture (NMAAHC)
Smithsonian’s                   building project, they need to continue to improve the efficiency
management of the               of awarding and administering construction packages for the
National Museum of              construction management at-risk (CMR) contract. First, the
African American History        Contract Specialist did not authorize the CMR contractor to
and Culture (NMAAHC)            begin work on construction packages soon after executing the
building project.               modifications. This partially contributed, along with other
                                process inefficiencies, to a 51 day delay in the start of
This is the second report       construction.
covering the contract
modification process. Our       In addition, the Smithsonian did not adequately monitor the
audit objectives were to        CMR contractor’s allowance pool to ensure adequate
assess the efficiency and       competition. Therefore, this increases the risk that the
effectiveness of the            Smithsonian may not be receiving a fair and reasonable price for
Smithsonian’s: 1) contract      this work.
modification process for
the construction                The conditions we identified were primarily caused by a lack of
management at-risk (CMR)        written policies and procedures within the Office of Contracting
contract; and 2) oversight      and Personal Property Management (OCon&PPM) and the Office
process for awarding            of Facilities, Engineering, and Operations (OFEO) for awarding
construction packages           and administering construction packages.
under the CMR contract.
                                What We Recommended
Background
                                To improve the efficiency and effectiveness of the CMR contract
In 2003, Congress               modification process, we recommended that management
established NMAAHC,             reinforce project priorities and that OCon&PPM and OFEO
dedicated to the collection,    develop and implement policies and procedures for awarding
preservation, research,         construction packages.
and exhibition of African
American historical and         Management concurred with our findings and recommendations
cultural material. The $500     and has planned corrective actions to address the
million funding for this        recommendations. We will continue to monitor management’s
project will be split evenly    progress towards completion of these recommendations.
between federal
appropriations and private
donations. The
Smithsonian announced
that the museum will open
to the public in November       For additional information or a copy of the full report, contact the
2015.                           Office of the Inspector General at (202) 633-7050 or visit
                                http://www.si.edu/oig.
o          Smithsonian In stitution

           Office of the In specto r Ge neral
                                                                                     Mem o



    Date   September 28, 2012

     To    Albert Horvath, Under Secretary for Finance and Administration and Chief
             Finan cial Officer
           Nancy Bechtol, Director, Office of Facilities, Engineering, and Operations
           Dorothy Leffler, Director, Office of Contracting and Personal Property
             Management
           Era Marshall , Director, Office of Equal Employment and Minority Affairs
           Lonnie Bunch, Director, National Museum of African American History
             and Culture

      cc   Richard Kurin, Under Secretary for History, Art, and Culture
           Patricia Bartlett, Chief of Staff, Office of the Secretary
           Judith Leonard, General Counsel
           John Clark, Budget Analyst, Office of Planning, Management and Budget
           Stone Kelly, Program and Budget Analyst, Office of Planning, Management
             and Budget

  From     Scott S. Dahl, Inspector General

Subj ect   Greater Efficiencies and Increased Oversight Needed for the NMAAHC
           Construction Management Process, A-12-03-2

           Attached please find a copy of our final report titled Greater Efficiencies and
           Increased Oversight Needed for the NMAAHC Construction Management
           Process.

           We made two recommendations to improve the efficiency and ove r sight of
           awarding construction packages for this project and any future projects using
           this method . Management concurred with our findings and recommendations
           and has planned corrective actions to address the recommendations . We will
           continue to monitor management's progress towards completion of these
           recommendations .

           We appreciate the courtesy and cooperation of the staff of the Office of
           Facilities, Engineering, and Operations; Office of Contracting and Personal
           Property Management; and Office of Equal Employment and Minority Affairs
           during this audit.

           Please call Michael Sinko, Assistant Inspector General for Audits or Joan
           Mockeridge, Supervisory Auditor on 202 .633 .7050 if you have any questions.




           MRC 524
           PO Box 37012
           Washington DC 200 13-07 12
           202.633.7050 Teleph o ne
           202 .633·7079 Fax
SMITHSONIAN INSTITUTION                                   OFFICE OF THE INSPECTOR GENERAL



INTRODUCTION

The Office of the Inspector General (OIG) is conducting a series of audits of the
Smithsonian’s management of the National Museum of African American History
and Culture (NMAAHC) building project. In this audit, we focused on the
Smithsonian’s contracting process because previous OIG audits revealed
weaknesses in this area and because management expressed concern about the
efficiency of this process.

This is the second of two reports covering the contracting process for the NMAAHC
building project and addresses the Smithsonian’s contract modification and
oversight processes for awarding construction packages under the construction
management at-risk (CMR) contract. We issued a separate report earlier covering
the architect/engineer (A/E) contract because at the time we began our fieldwork,
the Smithsonian had not yet awarded any construction packages under the CMR
contract.1

Our objectives for the overall audit were to assess the efficiency and effectiveness
of the Smithsonian’s: (1) contract modification process for the A/E and CMR
contracts; and (2) oversight process for awarding construction packages under the
CMR contract.

For the first time, Smithsonian management selected the fast-tracked CMR project
delivery method to design and construct its new museum because they believed
this was the only method that would enable the Smithsonian to meet its November
2015 opening date. Under the CMR project delivery method, the Smithsonian
contracts with an A/E firm to design the building and a construction contractor to
perform pre-construction services during the design phase. Unlike the traditional
delivery method, fast tracking accelerates the schedule by allowing the CMR
contractor to begin construction on portions of the work before the A/E contractor
has completed the building’s overall design. The Smithsonian awarded a base
contract to the CMR contractor for pre-construction services and is incrementally
awarding modifications to this contract for portions of construction work.

Three Smithsonian units are primarily involved in awarding and administering the
construction packages: Office of Contracting and Personal Property Management
(OCon&PPM), Office of Facilities Engineering and Operations (OFEO), and Office of
Equal Employment and Minority Affairs (OEEMA).




1
 Smithsonian OIG, The Smithsonian Should Streamline and Standardize Its
Architect/Engineer Contract Modification Process, A-12-03-1, May 11, 2012.




                                            1
SMITHSONIAN INSTITUTION                                OFFICE OF THE INSPECTOR GENERAL


We limited our scope to construction packages and change orders contained in the
modifications executed as of March 31, 2012. Change orders are changes to the
base contract caused by unforeseen field conditions or design changes. Within our
scope, we identified two construction packages and one change order for pre-
construction services, totaling $31.7 million. We include a detailed description of
our scope and methodology in Appendix A.

RESULTS IN BRIEF

While Smithsonian management actively oversees the NMAAHC building project,
management needs to continue to improve the efficiency of awarding and
administering construction packages for the CMR contract. First, the Contract
Specialist did not authorize the CMR contractor to begin work on construction
packages 1 and 2 soon after executing the modification, even though the terms in
the CMR contract required the specialist to do so. As a result, the CMR contractor
was not able to start construction work for these packages.

Second, for construction package 1, OFEO did not timely provide the price proposal
to OCon&PPM and OEEMA, delaying their offices’ reviews and approvals of the
proposal. Without these approvals, the CMR contractor could not begin work on this
package as originally scheduled.

Both OCon&PPM not authorizing work to begin, and OFEO not forwarding the price
proposal for package 1, are two of many issues that contributed to the CMR
contractor pushing its construction completion date back by 51 calendar days.
Management pointed out, that even with this extension, the museum’s opening
date - November 2015 - remains unchanged. In addition, this extension did not
cost the Smithsonian additional funds because the CMR contractor had not yet
started construction.

However, to open on schedule, the Smithsonian will need to overlap the
construction and exhibit work, which increases the risk of mistakes, injury, damage
to collections, and delays due to conflicting work sequences.

Third, for packages 1 and 2, OCon&PPM and OFEO did not adequately monitor the
subcontracts funded from the CMR contractor’s allowance pool to ensure that the
CMR contractor met the contract’s requirement to compete all work exceeding
$50,000. The contractor’s allowance pool sets aside funds for portions of the work,
without clear specification, for competitive bidding at the time the Smithsonian
awards the package. Without adequate monitoring, the Smithsonian would not be
aware whether the CMR contractor awarded a subcontract without competition. As
a result, there is an increased risk that the Smithsonian is not receiving a fair and
reasonable price for this work.




                                          2
SMITHSONIAN INSTITUTION                                OFFICE OF THE INSPECTOR GENERAL


Finally, although OFEO appropriately increased its oversight of the CMR contractor
when the contractor or its affiliate competed for work, the Contracting Officer’s
Technical Representative (COTR) should improve the documentation of this
oversight. By not documenting his review of the bids, the COTR increases the risk
that the Smithsonian, in the event of an unsuccessful bidder protest, will not be
able to demonstrate that it fulfilled its responsibility to ensure that the CMR
contractor awarded subcontracts fairly.

The conditions we identified were primarily caused by a lack of written policies and
procedures within OCon&PPM and OFEO for awarding and administering
construction packages. Although challenges may exist when using any project
delivery method for the first time, we believe the Smithsonian should have
established procedures for this method in advance. In their response, management
stated that they have since made improvements to address these problems.

We made two recommendations to improve the efficiency and oversight of
awarding construction packages for this project and any future projects using this
method. Management generally concurred with our findings and recommendations.
For recommendation 2, management has proposed corrective actions that will
address the recommendation. However, for recommendation 1 corrective actions
described by management do not fully satisfy the intent of this recommendation.
This recommendation will remain open, pending we will continue to monitor
management’s progress towards completion of this recommendation. Please refer
to Appendix B for management’s complete response.

BACKGROUND

The NMAAHC Building Project

In 2003, Congress established NMAAHC, the Smithsonian’s newest museum,
dedicated to the collection, preservation, research, and exhibition of African
American historical and cultural material. The $500 million funding for this project
will be split evenly between federal appropriations and private donations. The
Smithsonian held a groundbreaking ceremony in February 2012, when the
Smithsonian announced that it will open the museum to the public in November
2015.

CMR Project Delivery Method

Using the CMR project delivery method, the Smithsonian contracted with an A/E
firm to design the building and a construction manager to perform pre-construction
services (such as constructability reviews, value-engineering analysis, and cost
estimating) during the design phase. The design phase typically includes
submission of design documents in the following sequence of completion: 35
percent, 65 percent, 95 percent, and 100 percent. Once the A/E contractor delivers
the 65 percent design documents (“documents”) for the entire project, the




                                          3
SMITHSONIAN INSTITUTION                                   OFFICE OF THE INSPECTOR GENERAL


Smithsonian and the CMR contractor will negotiate and agree on a guaranteed
maximum price for construction services. Smithsonian management subsequently
informed us that they would negotiate the GMP at 95 percent documents. The
Smithsonian awarded a base contract to the CMR contractor for pre-construction
services and incrementally awards modifications to this contract for portions of
construction work. Because the Smithsonian did not compete the construction
services when it awarded the base contract, competition for the construction trade
work occurs at the subcontractor level. According to OCon&PPM’s contracting
procedures manual, competition is a contract strategy in which an organization
solicits more than one (sub)contractor to submit an offer. The CMR contract
specifically requires that the contractor    Figure 1. Smithsonian Relationship with
compete all work exceeding $50,000 by        Contractors for the NMAAHC Building Project
obtaining a minimum of three bids. Upon
receiving Smithsonian approval, the CMR
contractor awards subcontracts, and these                       Smithsonian
subcontractors are contractually bound
only to the CMR contractor. In some cases,
the CMR contractor or its affiliates may
perform work themselves (“self-performed          A/E Contractor          CMR Contractor
work”), but must compete for the work in
the same manner as other potential
subcontractors.
                                                                      Subcontractors
See figure 1 for a depiction of the various
contractual relationships under the CMR
delivery method.

Fast Tracking Construction Packages

The Smithsonian is fast tracking the NMAAHC building project, pursuant to the CMR
contract. Unlike the traditional delivery method where the design and construction
occur in a linear sequence, fast tracking accelerates the schedule by allowing the
CMR contractor to begin construction on portions of the work before the A/E
contractor has completed the building’s overall design. Overlapping design and
construction in this manner requires the A/E contractor to deliver substantially
complete design documents for the accelerated portions of the work.

While there are advantages to fast tracking, beginning construction while design is
ongoing introduces the risk of additional construction costs and schedule delays due
to unforeseen field conditions or design changes.

As of June 2012, the Smithsonian had awarded four of the eight total planned
construction packages—incremental phases of the construction work. Our audit
covered the Smithsonian’s award of construction packages 1 and 2.




                                            4
SMITHSONIAN INSTITUTION                                                   OFFICE OF THE INSPECTOR GENERAL


Construction Package 1: Site Utilities and Miscellaneous Trades
In January 2012, the Smithsonian awarded construction package 1 to the CMR
contractor for $4.9 million. This package consists of work related to site utilities
such as water distribution, storm drainage, sanitary sewers, and underground ducts
for electrical and telecommunication systems. In addition, this package included
miscellaneous trade work to set up the construction site and field offices.

Construction Package 2: Support of Excavation/Excavation/Dewatering/Deep
Foundation
In March 2012, the Smithsonian awarded construction package 2 for $26.7 million.
Package 2 comprises building an excavation support system, excavating, removing
water, and installing the deep foundation. The CMR contractor awarded a
subcontract to its affiliate for $13.9 million.

The six remaining packages, which the Smithsonian anticipates costing
approximately $274 million, cover various trades, such as the exterior enclosure,
concrete, structural steel, mechanical, electrical, plumbing, and carpentry. The
Smithsonian intends to have all remaining packages awarded by March 2013.

Steps for Awarding Construction Packages

The CMR contract describes the following twelve steps for the Smithsonian to award
construction packages and the CMR contractor to begin work:

 Figure 2. Steps for Awarding Construction Packages According to the CMR Contract


                                                                               4.CMR contractor
                                                                                 submits price
   1. A/E contractor       2. Smithsonian and        3. CMR contractor             proposal,
     submits 95%             CMR contractor         solicits minimum of          subcontractor
   documents to the            review 95%             3 bids for trades       recommendations,
     Smithsonian.              documents.             within package.         and subcontracting
                                                                                     plan.




                                                    6. OEEMA Supplier            5. COTR and
                                                    Diversity Program         Contract Specialist
     8. Contract             7. OCon&PPM              (SDP) Manager               review and
   Specialist issues            executes                reviews and             approve price
        NTP.                 modification.               approves               proposal and
                                                      subcontracting            subcontractor
                                                            plan.             recommendation.



                                                      11. Within 30
                                                       days, CMR
  9. CMR contractor       10. A/E contractor         contractor and            12. OCon&PPM
     begins work;          provides 100%             COTR negotiate               executes
  COTR administers           documents.             changes between            modification, as
       contract.                                     95% and 100%                necessary.
                                                      documents, if
                                                       necessary.




                                                      5
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL



RESULTS OF AUDIT

OCon&PPM Did Not Authorize the CMR Contractor to Begin Work Timely

The Contract Specialist did not authorize the CMR contractor to begin work on
construction packages 1 and 2 soon after executing the modification even though
the steps in the CMR contract required him to do so. As a result, the CMR
contractor was not able to start construction work for this package as scheduled. In
fact, withholding the NTP for package 1 partially contributed to the CMR contractor
extending the estimated construction completion date by 51 calendar days.
                                                                Figure 3. Sequence for
As mentioned in the background, the CMR contract describes      Issuing NTP According to the
the steps that must be completed for the Contract Specialist    CMR Contract

to authorize the CMR contractor to commence work. First,               A/E contractor
the A/E contractor delivers 95 percent documents for the               delivers 95%
                                                                        documents.
package. Then, once the Contract Specialist executes the
modification, he should issue an NTP before receiving the
CMR contractor’s cost estimate of any changes between the                OCon&PPM
95 percent and 100 percent documents, if applicable. See                  executes
                                                                        modification.
figure 3.

For construction package 1, the Contract Specialist did not              Contract
follow these steps. Instead, the Contract Specialist                  Specialist issues
                                                                           NTP.
authorized the CMR contractor to begin work only after the
CMR contractor provided the cost estimate for a design
change identified between 95 percent and 100 percent                  CMR Contractor
                                                                   submits cost estimate
documents. There was a nine day lapse between when                    of any changes
                                                                     between 95% and
OCon&PPM executed the modification and when the Contract             100% documents.
Specialist issued the NTP letter.

Similarly, for package 2, the Contract Specialist did not follow the steps described
above and issued an NTP late. Specifically, the Contract Specialist did not authorize
the CMR contractor to begin work until 28 days after he executed the modification
even though, at the time the Contract Specialist executed the modification, he had
all the required documentation from the CMR contractor, including the cost estimate
of the changes, to award the package.

The Contract Specialist withheld the NTP for several reasons:

   The Contract Specialist was more concerned about the budget than the
    schedule, despite the Smithsonian’s emphasis on the importance of meeting the
    museum’s scheduled opening date. Specifically, he was concerned that the
    design changes for these packages could cause the project to go over budget.
    Therefore, the Contract Specialist did not want the CMR contractor to proceed
    with any work on the packages until the Smithsonian knew their total cost. We
    recognize that the Contract Specialist is fulfilling his duties as outlined in
    OCon&PPM’s contracting procedures manual, which states that the Contract



                                         6
SMITHSONIAN INSTITUTION                                 OFFICE OF THE INSPECTOR GENERAL


    Specialist should be aware of the financial status of the project and should
    identify and mitigate risks. Nonetheless, we believe that in choosing the fast-
    track project delivery method, the Smithsonian accepted the risk that the
    design may change, and therefore costs will change, even as construction
    progresses. While we acknowledge the importance of being mindful of the
    budget, we also believe the Contract Specialist needs to be flexible, when
    appropriate, and allow the CMR contractor to begin work on portions of the
    construction package that are not affected by the design change. By not
    allowing the CMR contractor to begin any work, the Contract Specialist prevents
    the Smithsonian from gaining the full benefit of the fast-track method.

    Further, we believe OCon&PPM and OFEO have different project priorities—
    OCon&PPM, the budget, and OFEO, the schedule. Project management best
    practices state that the success of any construction project is based on the
    project team’s ability to prioritize three project constraints: budget, schedule,
    and quality. The Contract Specialist does not believe that the Smithsonian has
    prioritized these constraints for the NMAAHC project.

   For package 1, the Contract Specialist could not determine that the documents
    he received were based on 95 percent design completion in accordance with the
    CMR contract. Even though the CMR contract states that the A/E contractor will
    provide 95 percent documents for the construction packages, the A/E contract
    and its modifications do not require the A/E contractor to do so. In fact, an A/E
    contract modification states that, for package 1, the A/E contractor will provide
    documents based only on 75 percent to 90 percent design; for package 2, the
    modification did not state any percentage. For packages 3 through 8, the
    Smithsonian still has not modified the A/E contract to require the delivery of
    these remaining construction packages.

   The Contract Specialist wanted to know the total cost of each package before
    allowing the CMR contractor to begin work. For package 2, after the A/E
    contractor had issued 100 percent documents, the project team identified a
    design change—outside the scope of the package, which resulted in significant
    additional costs. The Contract Specialist believed that this change should have
    been included within the original package.

For package 1, withholding the NTP was one of many issues that contributed to the
CMR contractor shifting the estimated construction completion date from June 30,
2015, to August 20, 2015, an extension of 51 calendar days. Management informed
us that, even with this extension, the museum’s opening date - November 2015 -
remains unchanged. However, to achieve this date, the Smithsonian will need to
overlap the construction and exhibit work. Having the construction and exhibit
contractors working in the same space at the same time increases the risk of
mistakes, injury, damage to collections, and delays due to conflicting work
sequences.




                                           7
SMITHSONIAN INSTITUTION                                OFFICE OF THE INSPECTOR GENERAL


This extension did not cost the Smithsonian additional funds because the CMR
contractor had not yet started construction. However, now that construction has
begun, OFEO estimates that any further extension of the construction completion
date will cost the Smithsonian $18,000 per day in general conditions cost alone.
While management believes that withholding the NTP for package 2 did not result in
an extension, we are concerned that should the Contract Specialist withhold NTPs
for future packages, the construction completion date may extend beyond August
20, 2015.

Management’s response to this report states that the Contract Specialist issued
NTPs at reasonable intervals considering the extent of collaboration needed.
However, for packages 1 and 2 the Contract Specialist did not follow the process
agreed to in the contract. Furthermore, both OFEO and the CMR contractor
expressed concern that the Contract Specialist withholding NTPs may negatively
impact the schedule.

Process Inefficiencies Prevented the CMR Contractor from Beginning Work
Timely

OFEO’s COTR, who is responsible for monitoring the contractor’s progress and
costs, receives the price proposals for each package directly from the CMR
contractor (step 4 from Figure 2). To ensure that the Smithsonian awards
construction packages efficiently, OFEO should provide the CMR contractor’s
proposal soon after receiving it to (a) OCon&PPM’s Contract Specialist, who is
responsible for awarding and administering the contract; and (b) OEEMA’s SDP
Manager, who ensures small disadvantaged businesses receive equal opportunity in
Smithsonian procurements.

Yet, for construction package 1, OFEO followed its traditional change order
modification process. Under this process, competition is generally unnecessary. As
such, OFEO involves OCon&PPM at the end of the process when OFEO is ready for
OCon&PPM to award the modification. Furthermore, this process does not generally
require OEEMA’s involvement because the subcontracting plan would have already
been approved with the base contract. Because OFEO followed the traditional
change order modification process, OFEO did not provide the price proposal to
OCon&PPM and OEEMA soon after receiving it, delaying their review and approval of
the proposal (steps 5 and 6 from Figure 2):

      Following OFEO’s traditional change order modification process, a different
       process than what is described in Figure 2, OFEO forwarded the CMR
       contractor’s price proposal to the Contract Specialist 18 calendar days after
       the date of the proposal. Upon receiving the proposal, however, the Contract
       Specialist did not award the package because the CMR contractor had not
       satisfied the contract’s competition requirements. The Contract Specialist
       authorized the CMR contractor to begin work on the package only after the
       CMR contractor demonstrated that it had competed general conditions items
       greater than $50,000.



                                          8
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL


      Furthermore, OFEO forwarded the CMR contractor’s price proposal, which
       included a small business subcontracting plan, to the SDP Manager 27
       calendar days after the date of the proposal. The SDP Manager did not
       approve the subcontracting plan once he received it because this plan did not
       meet the contract requirements. The SDP Manager approved the plan after
       the CMR contractor submitted a revised one.

Without OCon&PPM’s and the SDP Manager’s approvals, the CMR contractor could
not begin work on this package as scheduled, which partially contributed to the
CMR contractor pushing its construction completion date back by 51 calendar days.
The COTR, Contract Specialist, and SDP Manager all agreed that the process delays
mentioned above occurred because their offices did not follow a mutually agreed-
upon process for awarding the construction packages. OFEO was following its
traditional change order modification process, rather than a process tailored to
awarding construction packages.

We believe the Smithsonian should award construction packages following a
process similar to that of awarding base contracts—not change orders—because
construction packages, like base contracts, generally involve competition whereas
change orders do not. Accordingly, OCon&PPM should be as involved in the process
for awarding construction packages as it is for base contracts.

The process inefficiencies we observed involved the first construction package of a
new project delivery method. Although challenges may exist when using any
project delivery method for the first time, we believe the Smithsonian should have
established procedures for this method in advance.

By not providing the price proposal sooner, OFEO prevented the Contract
Specialist’s and the SDP Manager’s timely reviews and approvals of the price
proposal and subcontracting plan. Without the SDP Manager’s approval, OCon&PPM
could not award the construction package. Likewise, the Contract Specialist did not
authorize the CMR contractor to begin work until the contractor demonstrated that
it had complied with the CMR contract’s competition requirements.

These are two of many issues that contributed to the 51-day extension of the
construction completion date. Extending this date any further may result in
additional costs and increased challenges associated with overlapping construction
and exhibit work we noted earlier.

During the course of the audit, project team members made improvements to their
process. Beginning with package 3, OFEO forwards the CMR contractor’s price
proposals to the Contract Specialist and the SDP Manager soon after receiving
them. Further, the SDP Manager is in regular contact with the CMR contractor
regarding the subcontracting plans for future packages.




                                         9
SMITHSONIAN INSTITUTION                                OFFICE OF THE INSPECTOR GENERAL


The Smithsonian Did Not Adequately Oversee the Contract’s Competition
Requirements

The CMR contract requires the contractor to compete all work exceeding $50,000.
Yet, the Smithsonian did not adequately monitor the CMR contractor to ensure that
the contractor met this requirement for work within packages 1 and 2 funded from
its allowance pool. The contractor’s allowance pool sets aside funds for portions of
the work, without clear specification, for competitive bidding at the time the
Smithsonian awards the package. Going forward, OFEO does not anticipate having
to track many allowances because the Smithsonian will try to reduce the amount of
allowances included in the remaining construction packages. In management’s
response, it stated that this is a small complication; however, the Smithsonian still
needs to track existing and any future allowances to ensure that the CMR
contractor complies with the contract.

The Contract Specialist attempted to track the CMR contractor’s allowances by
including language in the contract modification. Specifically, the contract
modifications for packages 1 and 2 prohibit the CMR contractor from awarding, and
beginning work for, subcontracts funded by the allowances until after receiving
Smithsonian approval. The modifications also require that the CMR contractor
report to the Smithsonian monthly on the status of all allowances. The Contract
Specialist’s efforts to monitor this information were not complete because the
allowance report did not include all allowances from packages 1 and 2, as required.

OCon&PPM’s contracting procedures manual does not clearly address who is
responsible for tracking whether the CMR contractor competed subcontracts
awarded using allowances. For example, the manual states that the Contract
Specialist is responsible for ensuring compliance with the terms of the contract;
however, it also states that the COTR is responsible for monitoring the contractor’s
progress and costs. Notwithstanding these assignments of responsibilities, both the
Contract Specialist and the COTR agree that the COTR should track these
allowances.

The Smithsonian did not adequately monitor whether the CMR contractor competed
subcontracts awarded against allowances because the Smithsonian did not have
procedures addressing this area. As we noted earlier, the Smithsonian lacked such
procedures because the Smithsonian is using a fast-tracked CMR delivery method
for the first time, and these issues are unique to this method. In previous
Smithsonian projects using the traditional project delivery method, the Smithsonian
would not need to track competition for the allowances, as the Smithsonian would
have already competed the work before awarding the construction contract.

By not adequately monitoring the CMR contractor’s allowances, the Smithsonian
may not be aware if the CMR contractor awarded a subcontract without competition
or is self-performing the work. This may increase the risk that the Smithsonian may
not be getting a fair and reasonable price for this work.




                                         10
SMITHSONIAN INSTITUTION                                 OFFICE OF THE INSPECTOR GENERAL


OFEO Should Document Its Review For Self-Performed Work

Although OFEO appropriately increased its oversight of the CMR contractor when
the contractor or its affiliate competed for work, the COTR should improve the
documentation of this oversight. For package 2, which included nearly $14 million
in self-performed work, the CMR contractor sent requests for bids to potential
subcontractors. Following best practices, the COTR received the bids directly. While
the COTR told us that he reviewed the bids before forwarding them to the CMR
contractor, he did not have documentation supporting his statement. The COTR has
since started documenting his review of bids where the CMR contractor or its
affiliate submits a bid to perform the work.

The Smithsonian should take additional steps to oversee the procurement process
when the CMR contractor chooses to submit a proposal to self-perform work. This
will ensure that the affiliate subcontractor is—and appears to be—selected fairly,
should CMR award them the subcontract. These additional steps, such as
documenting the COTR’s review, are necessary because the subcontracting
community may perceive the CMR contractor as having an unfair advantage in
these cases. Further, maintaining documentation is one of the COTR’s
responsibilities included in the COTR designation letter.

The COTR did not formally document his review of the bids for package 2 because
the Smithsonian did not have written procedures requiring him to do so. As
mentioned earlier, the Smithsonian lacked procedures specific to CMR project
delivery because the Smithsonian had not used this method before.

By not documenting his review of the bids, the COTR increases the risk that the
Smithsonian, in the event of an unsuccessful bidder protest, will not be able to
demonstrate that it fulfilled its responsibility to ensure that the CMR contractor
awarded subcontracts fairly.

Recommendations

To ensure alignment of the NMAAHC project team members’ priorities and actions,
we recommend that the Under Secretary for Finance & Administration/Chief
Financial Officer, in coordination with the Under Secretary for History, Art, and
Culture; OEEMA Director; and NMAAHC Director:

   1. Reinforce the NMAAHC project priorities, such as the schedule and budget,
      with key NMAAHC project team members (Contract Specialist, COTR, Project
      Executive, and NMAAHC personnel), and agree to the risks involved in using
      the fast-track delivery method.

In addition, to improve the efficiency and oversight of awarding construction
packages for this project, and because the Smithsonian may use this project
delivery method in the future, we recommend that the Directors of OCon&PPM,
OFEO, and OEEMA:



                                          11
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL


   2. Develop, document, and implement policies and procedures for awarding
      construction packages, to include requirements that:
        a. OCon&PPM and OEEMA receive the CMR contractor’s price proposals
            from OFEO soon after OFEO receives them;
        b. OCon&PPM and OFEO jointly agree on the percentage of design and
            any other requirements necessary to authorize the CMR contractor to
            begin work. Then modify the A/E and CMR contracts to stipulate the
            agreed-upon requirements;
        c. OCon&PPM and OFEO adequately monitor the CMR contractor to
            determine whether the contractor competed all contract allowances
            exceeding the competition threshold set forth in the CMR contract; and
        d. OFEO document the review of bids for self-performed work.

Management believes that their ongoing status meetings satisfy the intent of
recommendation 1. However, we found that during those meetings OFEO and
OCon&PPM had not agreed on project priorities—schedule and budget. OFEO and
the CMR contractor understood that when using the fast-track method there is a
risk that the design, as well as costs may change, even as construction progresses.
Yet, OCon&PPM had not accepted that risk and did not allow the CMR contractor to
proceed with any work on the packages until the Smithsonian knew their total cost.
Therefore, this recommendation will remain open, and we will continue to monitor
management’s progress towards completion of this recommendation.

For recommendation 2, we believe management’s planned actions will satisfy the
intent of this recommendation. Management will develop and implement written
policies and procedures by November 30, 2012.




                                        12
SMITHSONIAN INSTITUTION                                OFFICE OF THE INSPECTOR GENERAL


APPENDIX A. SCOPE AND METHODOLOGY

Our overall objectives were to assess the efficiency and effectiveness of the
Smithsonian’s: (1) contract modification process for the A/E and CMR contracts;
and (2) oversight process for awarding construction packages under the CMR
contract. Our earlier report addressed the contract modification process related to
the A/E contract. This report addresses the contract modification and oversight
processes for awarding construction packages under the CMR contract.

We obtained an understanding of the NMAAHC project by attending project
executive and oversight meetings. We also reviewed Smithsonian Board of Regents
meeting minutes and NMAAHC Council transcripts.

To obtain an understanding of the Smithsonian’s CMR contract modification and
oversight processes for awarding construction packages, we interviewed personnel
from OCon&PPM, OFEO, OEEMA, and NMAAHC. We also interviewed key personnel
from the A/E contractor, CMR contractor, and the NMAAHC project audit contractor.

We identified criteria by reviewing previous OIG audit reports related to building
project management; relevant sections of the FAR; Smithsonian policies and
procedures; the CMR and A/E contracts, their modifications, and other contract-
related documents; and the NMAAHC project auditing services contract. In addition,
we obtained best practices from federal, state, and local governments that use the
CMR project delivery method.

We limited our scope to construction packages and change orders contained in CMR
contract modifications executed as of March 31, 2012. We identified two
construction packages totaling $31.6 million, and one change order for pre-
construction services, within four modifications. The Smithsonian also modified the
contract for other administrative reasons such as to add funding or to revise the
payment schedule for pre-construction services. We excluded these contract actions
from our scope.

To test the efficiency and effectiveness of the Smithsonian’s contract modification
process, for modifications related to awarding construction packages 1 and 2 and
pre-construction services, we obtained documentation for each step in the contract
modification process and calculated the time between the steps. We also
determined whether the project executive accurately incorporated the additional
work into the project budget.

We assessed the Smithsonian’s oversight process for awarding construction
packages by testing whether the CMR contractor had competed all subcontracted
work exceeding $50,000 within construction packages 1 an 2, as the contract
requires, and whether the Smithsonian had concurred on the CMR contractor’s
subcontractor selection. We also reviewed the Smithsonian’s process for overseeing
the competition in cases where an affiliate of the CMR contractor intended to submit
a proposal to perform work.



                                        A-1
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL


APPENDIX A. SCOPE AND METHODOLOGY (continued)

We did not review the Smithsonian’s entire internal control structure for managing
contracts. We limited our review to those internal controls related to the contract
modification and oversight processes for awarding construction packages under the
NMAAHC CMR contract.

We conducted this performance audit in Washington, D.C. from November 2011
through July 2012, in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                        A-2
o
   APPENDIX B. MANAGEMENT'S RESPONSE

           Smithsonian Institution 	                                                                Memo 

           Office of Facilities Engineering and Operations




  Date 
   September 17, 2012
   To 
 Scott S. Dahl, Inspector General

           Attn: 	 Michael Sinko
                  Assistant Inspector General for Audits

    cc
    c:c    Albert Horvath, Under Secretary for Finance and Administration/Chief Financial Officer
           Era R. Marshall, Director, Office of Equal Employment and Minority Affairs
           Derek Ross, Director, Office of Engineering, Design and Construction, OFEO
           Willard Powell, Associate Director for Portfolios, OCon&PPM



                                                                                 dt
           Jud Mcintire, Architect/Project Executive, Office of Planning and Project Management, OFEO
           Rudy Watley, Supplier Diversity Program Manager, OEEMA
           Joan Mockeridge, Supervisory Auditor, OIG
           Michelle Uejio, Auditor, OIG
           Brendan Phillips, Auditor, OIG
                                                                                           !o-- ~
 From      Nancy Bechtol, Director, Office of Facilities Engineering and Operation
           Dorothy A. Leffler, Director, Office of Contracting and Personal Property   anagement   ~
Subject    Management Response to the Draft Report, Smithsonian Should Continue to Improve the
           Efficiency and Oversight of
                                    ofits
                                       its Construction Management at-Risk Contract Modification Process,
           Audit Report No. A-I 2-03-2
                            A-12-03-2

           '[hank you for the opportunity to review and comment on the draft report of Audit No. A-12-03-2
           delineating delineates findings on the efficiency and oversight by of the Smithsonian's
           Construction Management at-Risk (CMR) contract modification process. The audit is one ofaof a
           series being conducted by the Office ofthe Inspector General (OIG) on the management of the
           National Museum of African American History and Culture (NMAAHC) building project.

           The following are statements of consolidated comments by reviewers ofthe report on the results
           of audit A-12-03-2, and the recommendations included in the draft report. Accompanying our
           comments on the recommendations are actions already implemented or planned to improve
           coordination and management ofCMR projects at the Smithsonian.

           RECOMMENDATIONS

             Recommendation No.1:

             To ensure alignment of the NMAAHC project team members' priorities and actions, we
             recommend that the Under Secretary for Finance and AdministrationiChiefFinancial Officer, in
             coordination with the Under Secretary for History, Art and Culture; Office of Equal
             Employment and Minority Affairs (OEEMA) Director, and NMAAHC Director:

                I. 	 Reinforce the NMAAHC project priorities such as the schedule and budget, with key
                     NMAAHC project members (Contract Specialists, Contracting Officer's Technical
                     Representatives (COTRs),"Project
                                      (COTRs), Project Executive, and NMAAHC personnel) and agree to
                     risks involved in using the.fast track delivery method.

           PO Box 37012
           CG 5001, MRC 526
           Washington. DC 20013-7012
           Washington,

                                                             B-1
Page 2 – Scott S. Dahl, Inspector General


          Comment: Concur
          Actions Taken: Specific-focus and ad hoc meetings have been ongoing since the NMAAHC
          project planning was initiated. The following meeting schedule was implemented at the time
          the NMAAHC construction project began. These meetings shall continue to ensure that project
          progress is routinely reviewed and necessary adjustments to priorities are addressed.

              	 Weekly construction progress meetings: During these weekly meetings the
                 Construction Contractor team (CSR), the Architect-Engineer team (FABS), Office of
                 Facilities Engineering and Operations (OFEO) project team (Project Executive, Design
                 Manager, COTR for construction, and CM advisor team) and OCon&PPM meet to
                 review construction progress and any project issues, such as the intricacies of each
                 package, delivery of the construction work, submittals, RFIs, schedule and
                 coordination issues.
              	 Bi-weekly construction progress / client coordination meetings: The weekly
                 construction progress meeting attendee list is expanded to include NMAAHC (client)
                 representatives, and representatives from the Exhibit Design firm as necessary.
                 Meeting topics range from alignment of scope, scale, and budget to exhibit and artifact
                 installation.
              	 Monthly Project Executive Meetings: NMAAHC, OFEO, and OCon&PPM
                 managers, or their representative, and representatives from other SI offices, such as
                 Office of the Treasurer and Planning, Management and Budget, attend the monthly
                 meeting to review project design and construction status, upcoming milestones,
                 funding, and risk.
              	 Monthly Director “Check-in” Meetings: The OFEO Director and Associate
                 Directors for the Offices of Planning and Project Management (OPPM) and
                 Engineering, Design and Construction (OEDC) meet at least one time each month with
                 the NMAAHC Director review NMAAHC project progress and issues.
              	 Quarterly Oversight Meetings: Convened by the Under Secretary for History, Art
                 and Culture, these meetings include senior SI management from across the Institution.
                 Project status presentations are made by the OPPM Project Executive as well as the
                 NMAAHC team.
              	 Scheduled Coordination and Progress meetings: Meetings are convened with all
                 team members to review and resolve technical or process issues recognized by or
                 brought to any members attention. 

          Target Completion Date: Completed; the above listed meetings are on-going.

          Recommendation No. 2:

          To improve the efficiency and oversight of awarding construction packages for this project, and
          because the Smithsonian may use this project delivery method in the future, we recommend
          that the Directors of OCon&PPM, OFEO and OEEMA:

            2. 	 Develop, document, and implement policies and procedures for awarding construction
                 packages, to include requirements that:

                  a. 	 OCon&PPM and OEEMA receive the CMR contractor’s price proposals from



                                                   B-2
Page 3 – Scott S. Dahl, Inspector General


                      OFEO soon after OFEO receives them;
                  b.	 OCon&PPM and OFEO jointly agree on the percentage of design and any other
                      requirements necessary to authorize the CMR contractor to begin work. Then
                      modify the A/E and CMR contracts to stipulate the agreed-upon requirements;
                  c. 	 OCon&PPM and OFEO adequately monitor the CMR contractor to determine
                       whether the contractor competed all contract allowances exceeding $50,000; and
                  d.	 OFEO document the review of bids for self-performed work.

          Comment: 	Concur; the NMAAHC project management has been in accordance with this
          recommendation, albeit without written policies and procedures.

          Actions Taken: OFEO will document and codify written policies and procedures for awarding
          construction packages.  

            a.	 Each of the recommended elements for CMR policies and procedures were applied as
                packages 3, 4 and 5 awards were processed.
            b.	 Conflicting information in the CMR contract regarding completed documents
                percentages required for the Guaranteed Maximum Price (GMP) award has been resolved
                by deferring the GMP award to the 95% design document submission. For design, the
                A/E contract will be modified (award expected by November 2012) to incorporate
                delivery of construction packages 3 through 8.
            c.	 OFEO is tracking this with a “Contingency-Allowance” log that looks at all components
                of the package proposals, including modifications to keep pricing reconciled and aligned,
                and coordinated with pay applications.
            d. 	 Subcontract proposals for competition that might include CMR contractor self performed
                 or affiliate are received and logged by OFEO, then transmitted to the CMR contractor.
                 Log of acceptance has been created and is maintained by OFEO.

          Action Planned: OFEO and OCon&PPM will coordinate the development and implementation
          of written policies and procedures for CMR.  

          Target Completion Date: November 30, 2012


        RESULTS OF AUDIT

        The following are comments on points selected from the narrative included in the Results of
        Audit section of the draft report. The information provided here is intended to edify OIG auditors
        on how their findings will be used to ensure improve management of the CMR process at the
        Smithsonian.

          Finding: 	 OCon&PPM Did Not Authorize the CMR Contractor to Begin Work
                     Timely (page 6)

              	 The Contract Specialist did not authorize the CMR contractor to begin work on
                 Packages 1 and 2 soon after executing the modifications.




                                                   B-3
Page 4 – Scott S. Dahl, Inspector General


              	 Similarly, for package 2, the Contract Specialist did not follow the steps described
                 above and issued an NTP late. Specifically, the Contract Specialist did not authorize
                 the CMR contractor to begin work until 28 days after he executed the modification even
                 though, at the time the Contract Specialist executed the modification, he had all the
                 required documentation from the CMR contractor, including the cost estimate of the
                 changes, to award the package.

          Comments:

          OFEO and OCon&PPM take very seriously the need for timely coordination and
          communication among project team members for the CMR process to be successful and avoid
          delays with NMAAHC construction. OFEO and OCon&PPM have looked into the timeframes
          of project receivables and deliverables our offices required in order to issue Notices to Proceed
          (NTP) on packages 1 and 2. This analysis by OFEO and OCon&PPM for packages 1 and 2
          awards reviewed by OIG indicates all actions occurred at allowable and reasonable intervals,
          considering the extent of collaboration required by the NMAAHC project:

                   Package 1 sent to Clark-Smoot-Russell (CSR)                        12/21/2011
                   Package 1 mod 2 received from CSR at OCon&PPM                      01/13/2012
                   Package 1 awarded CSR                                              01/18/2012
                   Bonds received                                                     01/25/2012
                   Bidding concurrence received/concurred                             01/27/2012
                   NTP given                                                          01/27/2012
                   Package 2 sent to OCon&PPM                                         02/09/2012
                   Package 2 mod 4 sent to CSR                                        02/18/2012
                       Rejected due to schedule by CSR
                   Negotiation of new completion date of 8/20/2015 established        03/01/2012
                   Revised package 2 mod 4 sent to CSR revised                        03/02/2012
                   Received package from CSR                                          03/08/2012
                   Bonds received                                                     03/07/2012
                   OFEO request for NTP package 2 sent to OCon&PPM                    04/05/2012
                   NTP issued                                                         04/05/2012

          The OIG auditors recognized that although there was a delay in issuing the NTP for package 2,
          there was no impact to the critical path of the job, nor a negative cost impact to the job.
          Subsequent packages have maintained the August 20, 2015 completion date.

          To prevent NTP delays in the future, OFEO is developing guidance for use by OFEO staff to
          describe and align project scopes of work and expectations and create budget/package
          comparison documents.

          Finding: 	 Process Inefficiencies Prevented the CMR Contractor from Beginning
                     Work Timely (page 8)

              OFEO did not provide price proposal to OCon&PPM and OEEMA timely…resulting in
              pushing the completion date back 51 days.

          Comments:



                                                    B-4
Page 5 – Scott S. Dahl, Inspector General


          The OIG auditors could not have been aware of the following issues that contributed to delays
          in notifying the CMR to proceed:

            	 The CMR requested a change in the basis of general conditions from a reimbursable to a
               lump sum cost prior to award of package 1. This had to be resolved prior to award.
            	 The CMR did revise the completion date from June 30, 2015 to August 20, 2015 with the
               award of package 2. However, this was a cumulative response to the overall scope
               increase of the project, including the addition of the history gallery scope – and not only a
               specific response to the contracting time duration.

          Several other important issues and concerns needed to be resolved prior to notices being issued,
          they include: OCon&PPM required a CD containing the drawings that were posted on the
          OFEO ftp site but too large to email; all typical mobilization activities (fencing, trailers,
          dewatering, etc.) needed to be covered; obtaining utility permits; addressing permit
          requirements; receiving clarification of OEEMA requirements; and, addressing the requirement
          to compete any activity valued over $50K.

          It has always been our desire to provide complete packages to avoid confusing our SI partners
          with multiple packages. It is now practice that we provide initial packages “for information,”
          and send the final packages after all concurrences are received. OFEO shall continue to review
          schedules (the design deliverables, CSR production rates, and the exhibit packages) to identify
          any efficiencies in delivering the project. It is still our intention to complete the facility to be
          ready for a November 2015 opening.

          Finding: 	 The Smithsonian Did Not Adequately Oversee the Contract’s Competition
                     Requirements (page 9)

            For packages 1 and 2, OCon&PPM and OFEO did not adequately monitor the subcontracts
            funded through CMR contractor allowance pool…. Ensure meeting requirement to compete
            work exceeding $50k….

          Comments:

          This was a big discussion point and part of the delay in package 1, where initially the CMR
          contractor had allowances for work for General Conditions activities and later competed.
          Package 1 was our biggest exposure on this issue, and in the big picture, this is a small
          complication.

          Finding: 	 OFEO Should Document Its Review For Self-Performed Work (page 10)

            Although OFEO increased its oversight of the CMR contractor when the contractor or its
            affiliate competed for work, the COTR should improve the documentation of this oversight…

          Comments:

          Thus far, the CMR contractor has wanted its affiliated contractors to compete on two packages;
          Package 2, Clark Foundations, and Package 5, Clark Concrete. The entities are separate
          contractors and to ensure transparency, the proposals were delivered to OFEO. For package 2,
          OFEO assembled the proposals and forwarded them to CSR. Keep in mind this is not a



                                                     B-5
Page 6 – Scott S. Dahl, Inspector General


          Smithsonian procurement; this is a CSR procurement that comes with their recommendation
          and our concurrence. The emailed proposals and acknowledgement of receipt were recorded
          and retained by OFEO and then transmitted to CSR. For package 5, OFEO created a log
          of acceptance and the base offers and options. For package 5, SI has a larger participatory role
          as we can and will provide our sense of the best approach.

        Please direct any questions you may have regarding the above information to Derek Ross,
        Director, OEDC, for a coordinated response. Derek may be reached by telephone at
        202.633.6276 or via email at RossDE@si.edu.




                                                   B-6
SMITHSONIAN INSTITUTION                               OFFICE OF THE INSPECTOR GENERAL



APPENDIX C. CONTRIBUTORS TO REPORT

The following individuals from the Smithsonian Office of the Inspector General
contributed to this report:

Joan T. Mockeridge, Supervisory Auditor
Michelle S. Uejio, Auditor-in-Charge
Katie B. Spillane, Senior Auditor
Brendan Phillips, Auditor




                                          C-1
